<html>
<title> - FEDERAL BUREAU OF INVESTIGATION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                    FEDERAL BUREAU OF INVESTIGATION

=======================================================================



                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 16, 2011

                               __________

                           Serial No. 112-85

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
65-188                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TOM REED, New York                   LINDA T. SANCHEZ, California
TIM GRIFFIN, Arkansas                DEBBIE WASSERMAN SCHULTZ, Florida
TOM MARINO, Pennsylvania
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona

      Sean McLaughlin, Majority Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel



                            C O N T E N T S

                              ----------                              

                             MARCH 16, 2011

                                                                   Page

                           OPENING STATEMENTS

The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Chairman, Committee on the Judiciary.......     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     3

                                WITNESS

The Honorable Robert S. Mueller, III, Director, Federal Bureau of 
  Investigation
  Oral Testimony.................................................     4
  Prepared Statement.............................................     6

                                APPENDIX
               Material Submitted for the Hearing Record

Response to Post-Hearing Questions from the Honorable Robert S. 
  Mueller, III, Director, Federal Bureau of Investigation........    57


                    FEDERAL BUREAU OF INVESTIGATION

                              ----------                              


                       WEDNESDAY, MARCH 16, 2011

                          House of Representatives,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:02 a.m., in room 
2141, Rayburn Office Building, the Honorable Lamar Smith 
(Chairman of the Committee) presiding.
    Present: Representatives Smith, Sensenbrenner, Coble, 
Gallegly, Chabot, Pence, King, Franks, Gohmert, Poe, Reed, 
Griffin, Marino, Gowdy, Ross, Adams, Quayle, Conyers, Scott, 
Watt, Jackson Lee, Waters, Quigley, Chu, Deutch, and Wasserman 
Schultz.
    Staff present: (Majority) Sean McLaughlin, Chief of Staff 
and General Counsel; Allison Halataei, Deputy Chief of Staff/
Parliamentarian; Crystal Jezierski, Counsel; Arthur Radford 
Baker, Counsel; (Minority) Perry Appelbaum, Staff Director and 
Chief Counsel; and Sam Sokol, Counsel.
    Mr. Smith. The Judiciary Committee will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    And we welcome everyone here today, Members, and 
particularly the Director of the FBI, Director Mueller, and we 
appreciate his willingness to testify today.
    I am going to recognize myself for an opening statement, 
then recognize the Ranking Member for an opening statement.
    Welcome, Director Mueller. I very much appreciate your 
being here today. Apparently this will be your last appearance 
before the House Judiciary Committee as FBI Director. We all 
thank you for your almost 10 years of dedicated public service.
    Director Mueller began his tenure as FBI Director only days 
before the September 11th terrorist attacks. Since then, he has 
led the bureau through an ever-changing threat environment 
requiring a historic transformation of the agency.
    Under his leadership, the FBI has successfully thwarted 
numerous terrorist plots, including plots to bomb New York's 
subway system, to destroy skyscrapers in Texas and Illinois, 
and to kill dozens of innocent Americans at a Christmas tree 
lighting ceremony in Oregon last December.
    Terrorists remain intent on carrying out their plots to 
destroy America. Just last month, a 20-year-old student from 
Saudi Arabia was arrested in my home State of Texas for 
attempting to use weapons of mass destruction.
    The terrorist threat may have changed, but it has not 
diminished. Our counter-terrorism laws must keep pace with the 
evolving threats.
    It is imperative that Congress reauthorize the expiring 
provisions of the PATRIOT Act. Section 206 roving authority, 
section 215 business records, and the lone wolf definition are 
critical to apprehending terrorists before they strike.
    Unfortunately, the myths surrounding the PATRIOT Act often 
overshadow the truth. As Congress considers the reauthorization 
of these provisions, we must set aside fiction and focus on the 
facts. These are key investigative tools of the FBI. The most 
recent example may be that section 215 business records 
authority was used to thwart last month's plot in Texas.
    In the last decade, dramatic advances in technology have 
provided Americans with a wide variety of communication and 
research devices, but these new technologies have also enabled 
terrorists, spies, and criminals to operate with greater 
anonymity and less chance of detection.
    As a result, our law enforcement agencies may increasingly 
find themselves in the dark. Simply put, the technical 
capability of law enforcement agencies needs to keep pace with 
new technologies.
    Congress initially addressed this growing gap in 1994 when 
it passed legislation enabling law enforcement agents to 
conduct court-approved electronic surveillance. Since then, 
technology has continued to progress and we have new 
communication devices, new services, and new modes of 
communication. Yet, Federal law has not kept pace and does not 
address the contemporary challenge that law enforcement 
agencies face when attempting to intercept electronic 
communications.
    ``Going dark'' is not about expanding the legal authority 
to conduct surveillance. It is about the inability to collect 
information that a judge has already authorized.
    Congress must develop a solution that balances privacy 
interests, ensures continued innovation, and secures networks 
from unauthorized interceptions.
    Technology also has facilitated a dramatic increase in the 
proliferation and exchange of child pornography. Child 
pornography was almost eradicated in America by the 1980's. 
Unfortunately, the Internet has reversed this accomplishment. 
Today pedophiles can purchase, view, or exchange this 
disturbing material with near impunity. In the last 12 years, 
electronic service providers have reported almost 8 million 
images and videos of sexually exploited children. Child 
pornography on the Internet may be our fastest growing crime, 
increasing an average of 150 percent a year. That must stop. 
Better data retention will assist law enforcement officers with 
the investigation of child pornography and other Internet-based 
crimes.
    When investigators develop leads that might save a child or 
apprehend a pornographer, their efforts should not be 
frustrated because vital record were destroyed. Every piece of 
discarded information could be the footprint of a child 
predator.
    I look forward to hearing from Director Mueller today on 
these and other issues of importance to the FBI and the 
country.
    That concludes my opening statement.
    And the gentleman from Michigan, the Ranking Member of the 
Judiciary Committee, is recognized for his opening statement.
    Mr. Conyers. Thank you, Chairman Smith.
    Of course, top of the morning to our soon-to-be-departing-
this-year Director Mueller.
    We almost need a closed door session because some of the 
things we would like to talk about--well, maybe we might want 
to have one before you leave. It is not until September anyway.
    The things that are uppermost in my mind are these. I would 
like to talk with you about your experiences here nearly a 
decade, and actually longer, in the FBI but as its leader 
nearly a decade. I am interested in how we can reduce gun 
violence in this country. I am deeply concerned about how we 
can more effectively control the drug epidemic in this country. 
And I am very interested in how we can improve and continue to 
improve our relations with the Muslim citizens in this country.
    And so I look forward to your presentation and your review.
    We have had a good relationship with the Federal Bureau of 
Investigation under your leadership. You have been available to 
us. We have been candid in our discussions across the years. 
Well, I guess it was a predecessor of yours that required that 
we put term limits on your job, but I join the Chairman in 
welcoming you here and I am sure all of the Members of the 
Judiciary Committee do as well.
    Mr. Smith. Thank you, Mr. Conyers.
    Without objection, other Members' opening statements will 
be made a part of the record.
    We are pleased to welcome today's witness, Robert S. 
Mueller, III, Director of the Federal Bureau of Investigation. 
Director Mueller was nominated by President George W. Bush and 
began his term as the sixth director of the FBI on September 4, 
2001.
    Director Mueller has a long and distinguished record of 
public service. Early in his career he served for 12 years as a 
prosecutor in the United States Attorney offices. After serving 
as a partner at the Boston law firm of Hill and Barlow, 
Director Mueller returned to the Justice Department in 1989, 
serving first as an assistant to the Attorney General. The 
following year, he took charge of its Criminal Division.
    In 1998, Director Mueller was named United States Attorney 
in San Francisco, and he held that position until 2001.
    Director Mueller is a graduate of Princeton University, 
earned his Master's degree at New York University and his law 
degree from the University of Virginia School of law.
    He is also a decorated Marine, having received the Bronze 
Star, two Navy commendation medals, the Purple Heart, and the 
Vietnamese Cross of Gallantry.
    The witness's written statement will be made a part of the 
record in its entirety, and Director Mueller, once again, we 
welcome you today and look forward to your statement.

 TESTIMONY OF THE HONORABLE ROBERT S. MUELLER, III, DIRECTOR, 
                FEDERAL BUREAU OF INVESTIGATION

    Mr. Mueller. Good morning to you, Chairman Smith, Ranking 
Member Conyers, and Members of the Committee. And I thank you 
for the opportunity to appear here today before you.
    Today the Bureau faces unprecedented and increasingly 
complex challenges. We must identify and stop terrorists before 
they launch attacks against our citizens. We must protect our 
Government, businesses, and critical infrastructure from 
espionage and from the potentially devastating impact of cyber-
based attacks. We must root out public corruption by white-
collar crime, organized crime, stop child predators, and 
protect civil rights. We must also ensure that we are building 
a structure that will carry the FBI into the future by 
continuing to enhance our intelligence capabilities, improve 
our business practices and training, and develop the next 
generation of Bureau leaders. We must do all of this while 
respecting the authority given to us under the Constitution, 
upholding civil liberties and the rule of law.
    The challenges of carrying out this mission have never been 
greater, as the FBI has never faced a more complex threat 
environment than it does today. Over the past year, the FBI has 
faced an extraordinary range of threats from terrorism, 
espionage, cyber attacks, and traditional crime. Let me discuss 
just a few examples.
    Last October, there were the attempted bombings on air 
cargo flights bound for the United States from Yemen, directed 
by al-Qaeda in the Arabian Peninsula. And last May there was 
the attempted car bombing in Times Square, aided by TTP in 
Pakistan. These attempted attacks demonstrate how al-Qaeda and 
its affiliates still have the intent to strike inside the 
United States.
    In addition, there were a number of serious terrorist plots 
by lone offenders. Their targets ranged from a Martin Luther 
King Day march in Spokane, Washington to a Christmas tree 
lighting ceremony in Portland, Oregon to subway stations in 
Washington, D.C., and motives and methods of these plots, 
although varied, make these some of the most difficult threats 
to combat.
    The espionage threat persisted as well. Last summer, there 
were the arrests of 10 Russian spies known as illegals who 
secretly blended into American society in order to 
clandestinely gather information for Russia.
    And we continue to make significant arrests for economic 
espionage as foreign interests seek to steal controlled 
technologies. The cyber intrusion at Google last year 
highlighted the potential danger from a sophisticated Internet 
attack. Along with the countless other cyber incidents, these 
attacks threatened to undermine the integrity of the Internet 
and to victimize the businesses and people who rely on it.
    In our criminal investigations, we continue to uncover 
billion dollar corporate and mortgage frauds that weaken the 
financial system and victimize investors, homeowners, and 
ultimately taxpayers.
    We also exposed health care scams involving false billings 
and fake treatments that endangered patients and fleeced 
Government health care programs.
    The extreme violence across our southwest border continues 
to impact the United States, as we saw the murders last March 
of American consulate workers in Juarez, Mexico and the 
shooting last month of two U.S. Immigration and Customs 
Enforcement agents in Mexico.
    And throughout the year, there were numerous corruption 
cases that undermined the public trust and countless violent 
gang cases that continue to take innocent lives and endanger 
our communities.
    As these examples demonstrate, the FBI's mission to protect 
the American people has never been broader and demands on the 
FBI have never been greater. And to carry out these 
responsibilities, we need Congress' continued support more than 
ever.
    Let me briefly discuss two areas where Congress could help 
the FBI with its mission.
    First, we do encourage Congress to reauthorize the three 
FISA tools that are due to expire later this spring. The roving 
intercept authority is necessary for our national security 
mission and provides us with tools similar to what we use in 
criminal cases already. The business records authority permits 
us to obtain key documents and data in our national security 
cases, including our most serious terrorism matters. And the 
lone wolf provision is important to combat the growing threat 
from lone offenders and homegrown radicalization. These 
authorities, all of which are conducted with full court review 
and approval, are critical to our national security.
    Second, the FBI and other Government agencies, as the 
Chairman alluded to, are now facing a growing gap in our 
ability to execute court-approved intercepts of certain modern 
communications technologies. We call this the problem of 
``going dark.'' With the acceleration of new Internet-based 
technologies, we are increasingly unable to collect valuable 
information and evidence in cases ranging from child 
exploitation and pornography to organized crime and drug 
trafficking to terrorism and espionage. Let me emphasize that 
collecting this evidence has been approved by a court. But 
because the laws have not kept pace with changes in technology, 
we often cannot obtain the information responsive to the court 
order. And we look forward to working on this issue with this 
Committee and with Congress in the future months.
    Lastly, let me say a few words about the impact of the 
continuing budget resolutions on the FBI and our workforce.
    The support from this Committee and Congress has been an 
important part of transforming the FBI into the national 
security agency it is today. But for our transformation to be 
complete, we must continue to hire, train, and develop the 
best, brightest agents, analysts, and staff to meet the complex 
threats we face now and in the future. Under the current levels 
in the continuing resolution, the Bureau will have to absorb 
over $200 million in cuts, and without any changes, the current 
CR will leave us with over 1,100 vacant positions by the end of 
the year. And put simply, these cuts would undermine our 
efforts to transform the FBI and potentially to carry out our 
mission.
    I appreciate the opportunity to review the FBI's recent 
work in responding to the far-reaching threats we face today, 
and I also want to thank the Committee for your continued 
support on behalf of the men and women at the FBI. And of 
course, I will be happy to answer any questions you might have. 
Thank you, Mr. Chairman.
    [The prepared statement of Mr. Mueller follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Smith. Thank you, Director Mueller.
    I will recognize myself for initial questions.
    My first one, Director Mueller, goes to the need and 
importance of data retention by Internet service providers. 
There are a large number of Internet-based crimes today, 
particularly child pornography. I think probably the fastest 
growing crimes in America today are identity theft and child 
pornography which, as I mentioned in my opening statement, is 
increasing at about 150 percent a year, as it has been for the 
last 15 years.
    Would you let us know how you think better and perhaps 
longer data retention might be helpful to addressing some of 
those kinds of crimes?
    Mr. Mueller. Well, a number of years ago, for instance, 
when it comes to communications, telephone companies were the 
only means of communications. Records were kept by the 
telephone companies principally for billing purposes, and they 
were readily accessible in response to court orders requesting 
those records. With all the electronic communications in this 
day and age and companies that provide services that are not 
primarily communications providers, we have difficulty often in 
obtaining records from these particular companies. States in 
Europe, others, have a records retention statute that requires 
the retention of records for a period of time. We find in our 
investigations historical records are often, not in every case 
but I would say, historical records are important to our 
ability to develop an investigation to the point where we can 
arrest, indict, and hopefully convict that individuals who are 
responsible for the activity.
    Mr. Smith. Great.
    Mr. Mueller. I have talked about records retention in the 
past and am supportive of that form of legislation today.
    Mr. Smith. Thank you and that is helpful.
    I would also like to ask you about the PATRIOT Act. You 
have told us why it is important, and I don't want to paint too 
bleak of a picture here, but what would happen if the three 
provisions that are due to expire, I think May 27th, are not 
made permanent? How would it hamper your investigations if we 
did not have those three provisions?
    Mr. Mueller. Let me start with the three provisions at 
issue. I will start with the business records provision. This 
enables us to go to the FISA Court, when we have a showing of 
relevance to an investigation, to obtain basic records that are 
necessary to provide predication for further investigation that 
are more intrusive, for instance, records from a WalMart, or in 
the case of Azazi where an individual is seeking to obtain 
hydrogen peroxide for an explosive device, we would want to get 
the records of those purchases. A person who goes to WalMart to 
buy components of an IED. We would want to get those records 
from WalMart.
    Today we get those records in an international terrorism 
investigation by going to the FISA Court and with the 215 
provision having the ability for the court to order the 
production of those records.
    And it is not just those records I have identified. There 
are travel records. There are records relating to rental cars. 
All of these types of records are not covered by national 
security letters or covered by 215. We have used that provision 
over 380 times since 2001, and so it is an important provision.
    The second one relates to roving wiretaps. Where we are 
able to show that an individual--it may be a foreign 
intelligence officer--is seeking to evade surveillance by 
buying throw-away cell phones in order to change cell phone 
activity on a daily basis, we are able to go to the court under 
the current provisions and have the FISA Court direct that we 
are able to focus on that individual regardless of the 
particular cell phone that individual is using at a particular 
time. Otherwise, we have to go back to the court daily or 
weekly to get a re-up of those orders, and consequently, it is 
a great deal of additional manpower that would be required were 
we not to have the roving wiretap provision.
    The other point I would say is on the criminal side of the 
house, we have had this for any number of years where we have 
the roving wiretap capability, and we have used it successfully 
on the criminal side and it makes no sense in my mind to have 
it on the criminal side but not on the national security side.
    Lastly, the lone wolf provision was put into place to 
respond to the issue relating to Moussaoui, the individual who 
we believe back in advance of September 11 may have been here 
to be one of the pilots who was arrested by immigration 
services. The statute required that we show that he was 
affiliated with a particular terrorist group. We could not make 
that showing. We could not get the FISA order to look at his 
laptop. This provision was passed to address that particular 
incident. It is directed at non-U.S. citizens. It allows us to 
get a FISA warrant on an individual who is a terrorist but we 
cannot prove is affiliated with any particular group.
    Mr. Smith. Thank you, Director Mueller. I am going to 
squeeze in one more question. Maybe you can answer it very 
briefly.
    Considering that we are in an unclassified setting, real 
quickly what do you think are the most urgent terrorist threats 
we face in America today? Is there a one, two, three?
    Mr. Mueller. I would say the top two are probably threats 
out of the FATA, out of Pakistan-Afghanistan border area from 
al-Qaeda. Shahzad, the Times Square bomber--and there have been 
a number of other individuals coming out of training in that 
particular area that have posed a threat and continue to pose a 
threat.
    Secondly, and almost equal, is the threat from al-Qaeda in 
the Arabian Peninsula where you have seen the Christmas Day 
bombing of the year-plus ago, the attempt to come into Detroit 
and blow up the plane, as well as the two printers that were 
picked up in Dubai and in the UK recently. They were on their 
way to the United States and, if they had not been intercepted, 
would have blown up those planes.
    Mr. Smith. Okay.
    Mr. Mueller. The last two I would say are Al-Shabaab in 
Somalia and what is a substantial concern is a radicalization 
over the Internet of persons, lone wolves, in the United 
States. That is the full view of that threat picture.
    Mr. Smith. Thank you, Director Mueller.
    The gentleman from Michigan, the most recent Chairman 
emeritus of the Committee, is recognized for his questions.
    Mr. Conyers. Thank you very much, Chairman Smith.
    In our area in Detroit, we are very concerned about 
improving the relationship of the Muslims, the Arab community 
with law enforcement. And we are still reeling over that 
October 2009 shooting where an FBI agent killed a person with 
21 bullets. There was an undercover informant involved. And 
there is a continuing swell, undercurrent of criticism about 
some of the undercover informants of the FBI stirring up 
trouble in the Arab American community, almost as provocateurs. 
That is a very disturbing situation that I hope is not going on 
in other communities across the country.
    Your comments?
    Mr. Mueller. Well, let me start by saying since September 
11th, every one of our field offices, 56 field offices, has had 
extensive outreach to the Muslim American, Arab American, Sikh 
American communities with direction from headquarters to do 
everything you can to develop relationships for individuals and 
entities associated with those communities. And across the 
country, I think those relationships are very, very good.
    I am familiar with the incident to which you refer in 
Detroit. I think everyone who has looked at that incident 
believed that the response was appropriate under the 
circumstances.
    And lastly, with regard to the use of undercover 
operations, we have used these for probably the 100 years of 
our existence in terms of undercover operations when it comes 
to public corruption, on narcotics trafficking, traffic in 
child pornography. And so the use of undercover operations we 
do across the board day in and day out. Undercover operations 
in terrorist cases are not much different than undercover 
operations that we do across the board.
    Secondly, I would say and point out that they are subject 
to substantial review at headquarters and are monitored as they 
go forward not only by headquarters but also monitored by the 
U.S. Attorney's offices in which the undercover operations are 
taking place to assure that we are not entrapping individuals 
but there is a predisposition of those individuals to undertake 
that criminal activity.
    And finally, I would say if you look at the number of 
terrorist threats that were thwarted where individuals were 
arrested and those individuals would assert the entrapment 
defense, I am not familiar with a jury that has found in favor 
of a defendant on the entrapment defense in the many cases that 
have gone to trial since September 11th.
    Mr. Conyers. We have a recession, a depression in many 
places, and it stemmed from the subprime mortgage scandal, the 
bundling up of derivatives and sending them into financial 
markets all over the world. Wall Street has been thoroughly 
embarrassed by some of the activity that has been determined. 
We are passing all kinds of laws trying to put sunlight on some 
of these activities that are going on.
    Not one person has been imprisoned yet. Nobody has gone to 
jail. Nobody has been punished. The Department of Justice can't 
come up with any kind of strategy to really use the criminal 
justice system as it is used for everything else. Could that be 
because the FBI hasn't done enough work in getting a case built 
up, the evidence brought in that would result in indictments?
    Mr. Mueller. I strongly disagree with that portrayal of our 
efforts, Congressman. There have been any number of 
indictments. We have had takedowns just about every 6 months of 
persons arrested for mortgage fraud, securities fraud, 
corporate fraud. There are ongoing trials today in that arena. 
If you look at mortgage fraud alone, we have over 3,000 cases 
that we have been investigating. We have got 94 task forces. I 
have got 340 agents that are directed just to mortgage fraud.
    Mr. Conyers. Yes, but it is not Wall Street.
    Mr. Mueller. With regard to corporate fraud, we have 667 
cases, over 55 related to the subprime mortgage industry. Most 
of these cases are of Wall Street. We have 110 agents that are 
looking at corporate fraud. When it comes to securities fraud, 
we got 1,700 cases. I have got 233 agents that are working on 
securities fraud, and out of those particular initiatives, 
there have been any number of indictments and convictions. And 
I would be happy to give you a listing of those indictments and 
convictions.
    And one last point. If you look at the newspapers today and 
yesterday and the day before, you will see that there are cases 
that are taking place in New York as we speak with regard to 
corruption in Wall Street.
    Mr. Conyers. I feel a little better now. [Laughter.]
    And I will start reading the papers more carefully.
    Mr. Smith. Thank you, Mr. Conyers.
    Considering the gentleman from Wisconsin's role in 
developing the PATRIOT Act, he is recognized for a very full 5 
minutes.
    Mr. Sensenbrenner. Well, thank you very much, Mr. Chairman.
    First of all, Director Mueller, let me say that I am going 
to truly regret your term expiring in September. I was the 
Chairman of the Committee at the time 9/11 took place. The 
cooperation between you personally and me personally, as well 
as the FBI and the Committee, helped us develop I think some 
very useful legislation, and it was not just the PATRIOT Act, 
but it was other laws as well that has made Americans safer.
    I think on September 12th, 2001, if anybody would have 
predicted that we would have avoided a major terrorist attack 
for over 9 years, they would have been accused of smoking 
something that they shouldn't be smoking. That is a result of 
the FBI utilizing the tools that the Congress gave them and you 
directing the agents of the FBI in a manner where there have 
not been any proven civil rights violations as a result of the 
expanded provisions given to law enforcement as a result of the 
PATRIOT Act.
    And I would agree with the Chairman of the Committee that 
there has been an awful lot of hype about the PATRIOT Act that 
is not actually founded in the 16, subsequently expanded to 17, 
expanded tools that were given to law enforcement by that act.
    Now, all of that being said, we are in the process of 
fighting over reauthorization. I want to ask you to make some 
comments about the bill that is pending in the other body since 
we can't ask the authors of that. So you have got the field to 
yourself.
    The Senate version of the extension sunsets the national 
security letter standard established under the act at the end 
of 2013. Do you support reverting back to the pre-9/11 standard 
for national security letters? And if not, why not?
    Mr. Mueller. I do not. Let me say that the reauthorization 
that is up does not address national security letters. In other 
words, the three provisions that are being up for 
reauthorization do not relate to national security letters. But 
the national security letters are the building blocks of any 
case which enable us to collect information, and based on that 
information, we then can make a further showing to the FISA 
Court for more intrusive investigative activity such as 
monitoring conversations or doing searches. Changing the 
standard or sunsetting national security letters would 
adversely impact us if it were sunsetted undercutting our 
ability to undertake the kinds of investigations that have led 
to the disruptions in the last 9 years.
    Also, having a sunset provision contributes a degree of 
uncertainty in the months going up to when that provision is to 
be reauthorized that is unsettling and disturbing in the sense 
that you don't know where your investigations will be at a 
particular time when it comes up for Congress' reauthorization. 
And consequently, quite obviously we prefer not to have that 
uncertainty, not to have that question about what will be our 
powers down the road.
    Mr. Sensenbrenner. Now, on another issue, I am fully aware 
that there are only three provisions of the PATRIOT Act that 
were sunsetted. I did the hearings 5 years ago, 6 years ago 
where the other 14--there was really no controversy, and they 
were made permanent. But there are those that wish to beat the 
drum and open them up again. And one of those is the delayed 
notification search warrants where the Senate bill proposes to 
shorten the time from 30 days to 7 days.
    A couple of questions. Has the 30-day notification delay 
been held unconstitutional or improper? What operational 
advantages result from shortening the 30 days to the 7 days? 
And will investigators have an easier time investigating 
terrorist threats or a more difficult time?
    Mr. Mueller. I think the 30-day time frame works well. It 
gives you an opportunity to develop the investigation without 
having to, every week, go back to the court with an additional 
filing. Every one of these filings are fairly substantial. 
Every one of these filings--you have to put manpower into it, 
whether it is from the investigative point of view or from the 
prosecutorial point of view. I see no advantage to drawing it 
back to 7 days. It means additional work.
    The other thing I would say is that the 30-day time limit 
is set by the court. So the court is reviewing this 
periodically, and if the court believes that there is some 
problem with the 30-day period, the court can go ahead and 
require a further report shorter if that particular judge who 
is monitoring this feels that 30 days is inadequate.
    So I would be against the change from 30 days----
    Mr. Sensenbrenner. The final question is, does shortening 
the delayed notice warrant do anything to assist the target of 
the investigation to evade surveillance?
    Mr. Mueller. I would have to think about that and get back 
to you on that particular question.
    Mr. Sensenbrenner. Thank you, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Sensenbrenner.
    The gentlewoman from California, Ms. Waters, is recognized 
for her questions.
    Ms. Waters. Thank you very much, Mr. Chairman.
    I would like to say to our FBI Director, Mr. Mueller, I 
thank you for your 10 years or more of service, and I 
appreciate the way that you have always been responsive to the 
Members when we have sought you out for information or 
clarification. And we are going to miss you.
    But before you go, I have to tell you that some of us have 
been focused on the financial crisis, and just as Mr. Conyers 
started to talk about what role the FBI have played in bringing 
to justice some of those who have committed mortgage fraud, for 
example--it seems that we know some things and we have learned 
through WikiLeaks and those who received some of the WikiLeaks 
information about Bank of America and Bank of America is 
involved with the Balboa organization, insurance organization, 
and one of their ex-employees who have exposed some information 
about fraud.
    Without going into that specific case, I appreciate the 
fact that you have indicated that you have all of these 
investigations going on and you have these agents and the 
special task force. But this has been going on since 2004. 
Nobody has gone to jail. Nobody has been identified as a major 
player in all of this. Meanwhile, people are losing their homes 
and we find that the servicers who are supposed to do the loan 
modifications uncover fraud but they do nothing about it 
because they are not charged with doing anything about it.
    What is the FBI doing? Who have you sent to jail? When are 
we going to get some justice in this area?
    Mr. Mueller. Excuse me just 1 second.
    I wish I had brought today the statistics of the persons we 
have arrested, indicted, and successfully convicted and sent to 
jail. There are hundreds. And I would be happy, as I told 
Congressman Conyers, to get those statistics to you.
    What I have relayed in response to the question from 
Congressman Conyers is the efforts that we have made in the 
last 2 or 3, 4 years to address exactly what you are saying is 
the problem. And we have been very successful in those efforts. 
We have had a comprehensive approach, coordinated with the 
Department of Justice, and through task forces around the 
country, as well as in New York in the financial arena in New 
York to address exactly what you pointed out in terms of those 
factors that contribute to where we are in terms of the 
economy.
    Ms. Waters. Mr. Director, let me just ask you this. Most of 
the mortgages are being initiated through the Big Five. You 
have got Bank of America. You have got Wells Fargo, Chase 
Manhattan. And they are servicers. They own these servicing 
operations. This is where the problems are. We don't hear 
anything about what is being done about fraud from the big 
servicers who are so-called managing these loan modifications 
that ignore the fraud, who maybe even participate in it. What 
has been done on the big operations?
    Mr. Mueller. Let me say that I am familiar with the 
allegations relating to services. We do have fraud or illegal 
activity with regard to the services and servicing of 
mortgages, and we do have open investigations there. I could 
not in open session discuss with you more specific parameters 
of our investigations other than to say that to the extent that 
we have allegations with regard to fraud, we do investigate and 
are investigating.
    Ms. Waters. Let me just say it starts with the loan 
initiators, some of whom we discovered, for example, with 
Countrywide in California who put these loan initiators out on 
the street without a lot of training and not a lot of 
background checks. They actually committed fraud in some cases 
where they signed the name of the homeowner to mortgages that 
they did not understand or know about. It starts there, and 
then from the loan initiators, it goes on to--you know, we have 
to say that some of those responsible for the secondary market 
have some responsibility in that. By the time it gets to the 
servicer, the servicers again are committing crimes. So we have 
homeowners who have been exposed at three levels by an industry 
that simply ripped us off. What is going to be done about it?
    Mr. Mueller. They just handed me some of the statistics we 
have. Back in 2010, we had 217 indictments and informations in 
the corporate fraud arena, and as of this year, we have had 89.
    As an example of a case, in February, last month, Michael 
McGrath, the former president of U.S. Mortgage, a privately 
held mortgage company, was sentenced to a jail term of 168 
months for his role in orchestrating a $136 million corporate 
fraud scheme related to the subprime mortgage industry.
    Ms. Waters. What happened with Ameriquest? Did you do 
anything with Ameriquest, the big one?
    Mr. Smith. The gentlewoman's time has expired, and the 
gentleman from Florida, Mr. Ross, is recognized for his 
questions.
    Ms. Waters. Thank you very much.
    Mr. Ross. Thank you, Mr. Chairman.
    Mr. Mueller, again, I want to echo the sentiments of the 
Members of this Committee and congratulate you on your service. 
It is very distinguished and it has been at a time when this 
country has needed your type of leadership. So I thank you.
    Specifically with regard to the PATRIOT Act and the roving 
wiretaps, this is something that I find absolutely useful if we 
are going to continue the type of surveillance necessary to 
prevent any further attacks. And I guess my question to you is 
in these roving wiretaps, if it is not reauthorized, what is 
your recourse in terms of delays.
    Mr. Mueller. Our only recourse in that event is to keep 
going back to the court as we receive new information that the 
person has thrown away the first cell phone that they had on 
day 1 and bought another one for day 2, and we can anticipate 
another one for day 3.
    Mr. Ross. And how long would that take?
    Mr. Mueller. It takes a good long time, and there is a 
delay in terms of getting the re-upped order. And so you may 
well miss conversations as you attempt to draft the application 
with the affidavit and the proposed order, get it to a court so 
it can be reviewed and issued. So the consequence is the delay 
that it takes to get the order and what you may lose in the 
time frame that it takes you to get that order where you do not 
have coverage on that particular phone or phones.
    Mr. Ross. And it makes us significantly more vulnerable.
    Mr. Mueller. It can. It can, yes, sir.
    Mr. Ross. With regard to the national security letters, 
when those have been issued, how have they been received by 
some of the communications providers? Have you seen any 
resistance?
    Mr. Mueller. There have been pockets of concern where we 
have had to use the 215 business records to back up national 
security letters.
    Mr. Ross. So in other words, they wouldn't give you the 
substance of the communication. They would just give you the 
fact that a communication----
    Mr. Mueller. They may give us some information, but not the 
information to which we believe we are entitled under national 
security letters which requires us then to go to 215 proviso to 
obtain the records.
    Mr. Ross. And that too is a delay then.
    Mr. Mueller. That is a delay.
    Mr. Ross. Is there anything we can do to help you there?
    Mr. Mueller. It is a delay.
    Mr. Ross. With regard to the Espionage Act, do you think it 
should apply to foreign defendants outside of the territorial 
jurisdiction of the United States?
    Mr. Mueller. I think I know to what you are alluding in 
terms of ongoing investigations. I unfortunately would have to 
stay away from opining on the application of the Espionage Act.
    Mr. Ross. I understand.
    With regard to gangs, what efforts are being made to 
investigate and to curtail the growth and involvement of gangs?
    Mr. Mueller. Well, from the perspective of----
    Mr. Ross. I know you have a task force.
    Mr. Mueller. We have over 100 violent gang crime task 
forces. We have what we call Safe Trails task forces for Indian 
Country, and we have 41 prostitution task forces or working 
groups across the country. We have over 1,300 agents who are 
working gangs throughout the United States.
    Mr. Ross. How is it going? Have you seen an increase, gang 
activity increase, stabilize, or decline?
    Mr. Mueller. I would have to say that gang activity is 
increasing not perhaps at the rate it did maybe 4 or 5 years 
ago, but still, nonetheless, is increasing. I do believe that 
our work on these gang task forces principally with State and 
local law enforcement have made a dent in many communities. Our 
admonition to the task forces to identify a particular sector 
of the city which has levels of violent crime, address that 
violent crime and at the end of it, I want to see what impact 
there has been in reducing the violent crime in that area of 
the community. And as we focus on that, we do it with our State 
and local counterparts, and I think we have been effective in 
utilizing that task force concept in addressing gangs.
    Mr. Ross. And you found good cooperation with the State and 
local law enforcement?
    Mr. Mueller. Yes, although I continue to urge--when 
Congress appropriates funds for State and local law enforcement 
or even for us, there are areas in which there is a great 
incentive to--as you give an incentive to a State and local law 
enforcement to cooperate with the Federal authorities, it 
enhances that cooperation. And consequently our success in the 
Bureau is dependent on our relationships with State and local 
law enforcement. And to the extent that Congress in its 
activity can encourage that, I am supportive.
    Mr. Ross. One last question. What advice would you publicly 
give to your successor?
    Mr. Mueller. I would say that the Bureau is its people, its 
agents, its analysts, and its staff. You will never find a 
greater group of dedicated professionals across the country. 
Rely on them. They do the job day in and day out, tremendously 
dedicated. And to the extent that we are successful, it is 
these individuals. But as I said before, it is also so 
important to understand that our success is dependent on 
working with our State and local law enforcement, as well as 
our counterparts overseas.
    Mr. Ross. Thank you and I yield back.
    Mr. Smith. Thank you, Mr. Ross.
    The gentleman from Virginia, Mr. Scott, is recognized for 
his questions.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Mueller, it is good to see you today.
    Talking about Medicare fraud, there have been reports that 
billions of dollars are being siphoned off by criminal 
activity. 60 Minutes and other exposes have shown it is 
widespread and easily done. When you have FBI agents chasing 
after Medicare fraud, do they produce more in savings than they 
cost?
    Mr. Mueller. I would have to get back to you but I 
absolutely believe that is the case.
    Mr. Scott. Say again?
    Mr. Mueller. Absolutely, I believe that to be the case. I 
would have to give a close look at it, but I do believe that is 
the case.
    Mr. Scott. And in the mortgage fraud, you have been back 
and forth on that. The fraud was so widespread. Are you seeking 
civil fines from a lot of people that got illegal profits?
    Mr. Mueller. I know the Department of Justice--and we are 
helping the Department of Justice in certain instances in 
seeking civil fines, but we also, whenever we can, would seek 
outright forfeiture of any ill-gotten gains. And we have been 
successful in doing that.
    Mr. Scott. You have agencies where just the whole company 
profited through corrupt practices. Is there any widespread 
effort to get--I mean, if you go through, there are billions, 
trillions of dollars of illegal profits that ended up with the 
total collapse of our economy. Is there any effort to recover 
those illegal profits----
    Mr. Mueller. Yes.
    Mr. Scott [continuing]. On a widespread basis?
    Mr. Mueller. Absolutely. Initially we will look at it for 
criminal forfeiture to the extent we can identify the ill-
gotten gains and tie it into the fraudulent scheme. Secondly, 
we would go after it, and by we I mean the Department of 
Justice civilly. And thirdly, you have private actors that we 
would go after and seek the ill-gotten gains. Perhaps the 
Madoff case is the most notorious example of that kind of 
attempt to recoup the losses to----
    Mr. Scott. And you are doing that on other cases too?
    Mr. Mueller. Pardon?
    Mr. Scott. You are doing that on other cases too?
    Mr. Mueller. Absolutely.
    Mr. Scott. There are two areas, organized retail theft and 
ID theft, where a lot of crimes could be solved if you had the 
manpower to actually do the legwork because there is usually a 
paper trail. Do you have enough agents working on organized 
retail theft and ID theft to be an effective deterrent?
    Mr. Mueller. Let me just talk about organized retail theft. 
We will, in particular areas of the country where there is a 
need for us to assist State and local law enforcement in 
addressing it or there is some sort of organized criminal 
activity that cuts across jurisdictional lines, allocate the 
personnel to address it, generally in the task force paradigm.
    ID theft. Again, we will work with our State and local 
counterparts. There are a number of task forces and working 
groups to address ID theft, but I will tell you that it is so 
prevalent. It is very difficult to comprehensively address 
that, and our resources are relatively thin, particularly when 
it comes to----
    Mr. Scott. But if you had more resources, you could do more 
work on ID theft.
    Mr. Mueller. More resources, we could do more in terms of 
ID theft and a number of other areas.
    Mr. Scott. Are there any loopholes in gun laws that need to 
be closed?
    Mr. Mueller. That is a very broad subject. I would have to 
look at a particular piece of legislation to opine on where we 
should be in that area.
    Mr. Scott. Well, if you could get back to us with 
recommendations, that would be helpful.
    Mr. Mueller. Thank you, sir.
    Mr. Scott. My time is running out. If you could comment 
generally for the record on any problems that the FBI lab has, 
any challenges they have. If you could just get back to me on 
if there are any challenges, things we need to look at.
    There is a disconnect around here about cutting a budget 
and what will not get done. If you could provide examples of 
what would not get done if some of these proposed budget cuts 
are passed, that would be helpful.
    Finally, you indicated on the criminal side as opposed to 
national security you needed the lone wolf provision, and the 
lone wolf provision requires a determination of terrorism. How 
do you get those without the same information that would allow 
you to get a title III warrant? Or why do you need the PATRIOT 
Act provisions rather than--because if you have evidence that 
he is a terrorist, that should be enough evidence to get a 
title III warrant, and the same with some of the other 
provisions.
    Mr. Mueller. That is not necessarily true. On the title III 
and the criminal side, you are looking for a person who has 
committed or is in the process of committing a crime. On the 
national security side, you are trying to prevent that 
terrorist act and identify that person as a terrorist. The 
glitch is that you have to show without this statute that the 
person is an agent of a foreign power in order to get that 
warrant on the FISA side, which if it is a terrorist group, as 
we saw in the Moussaoui case, may be difficult to do.
    There is another aspect to it and that is often on the 
counter-terrorism side and since September 11th, we integrate 
information from the CIA, NSA, and other intelligence entities. 
There are provisions on the national security side to protect 
that information, the sources and the methods that you do not 
have on the criminal side. And consequently, the mechanisms we 
have on the FISA Court and the FISA statute allow us to do 
often that which cannot be done on the criminal side and where 
the focus is an agent of a foreign power, the agent of a 
foreign power in this case being a terrorist.
    Mr. Smith. Thank you, Mr. Scott.
    The gentleman from South Carolina, Mr. Gowdy, is 
recognized.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Director, I want to commend you for your service not just 
with the Bureau but also as a Federal prosecutor. I had the 
privilege of meeting you in South Carolina many years ago when 
you came down to our State Law Enforcement Division, also known 
as SLED, for a computer. And I also want to take this 
opportunity to compliment your agents in the upstate of South 
Carolina, specifically Spartanburg and Greenville. They worked, 
along with the DEA, a public corruption case which saw a 
magistrate judge and an elected clerk of court go to prison for 
selling evidence, selling drugs out of the evidence locker. And 
to the extent you are going to be in South Carolina before your 
term expires, if you would tell Special Agents Mike Kelly, 
Brian Bryan, and Jim Lannamann how grateful all of us are for 
their hard and excellent work. They really are a credit to the 
Bureau.
    Mr. Mueller. I will pass that on, sir. Thank you.
    Mr. Gowdy. They have been wonderful. I got to work with 
them for 16 years as a prosecutor and there are days I miss 
that job. [Laughter.]
    Mr. Mueller. So do I. [Laughter.]
    Mr. Gowdy. Maybe we can go back together and be on the side 
of the angels and prosecute again.
    I wanted to ask you about mortgage fraud and health care 
fraud. You have already addressed those. I would ask you 
specifically with respect to health care fraud, I don't know 
whether this statistic is correct or not. I suspect it probably 
is: 48 different agencies or sub-entities that have 
jurisdiction with respect to investigating health care fraud. 
Is there a more streamlined approach and therefore more 
effective approach that you could recommend? Does the Bureau 
ever bump into other agencies when you are investigating health 
care fraud? Is there a better way than the way we are doing it?
    Mr. Mueller. Having been a prosecutor, you know we do bump 
into other agencies, and when we bump into other agencies, we 
try to incorporate them in a task force. If you look in Florida 
and Texas and around the country, the major successes have been 
undertaken in utilizing the task force concept where many of 
those 60-odd agencies that you mentioned are participants. And 
it is not just the Federal. It is not just HHS and the IG or 
the FBI or the Postal Service. It also is State and local 
attorney general offices, local district attorney offices that 
participate in these task forces, and you find you are able to 
triage the cases. The more substantial ones will go to Federal 
court. The ones that can be addressed in State court are then 
triaged and addressed in State court. What you try to do is 
identify the universe of cases and then make certain that every 
one of them is addressed in one way or another. Again, the task 
force concept is the way to go, and we have any number of task 
forces and working groups around the country addressing health 
care fraud.
    Mr. Gowdy. Using both your law enforcement hat and your 
prosecutorial hat, are there any categories of declinations 
that the Bureau is receiving from U.S. Attorney's offices that 
you find troubling? Are you working a certain category of cases 
and just not having them indicted or prosecuted? And I am not 
trying to put you on the spot with U.S. Attorneys. But are 
there any categories of cases that your folks could use some 
help with in terms of maybe a disproportionate number of 
declinations?
    Mr. Mueller. No. I don't think the issue is declinations, 
but having been a U.S. Attorney and now an investigator, the 
one thing I do say is that we have to together address white-
collar criminal cases swiftly, effectively, and move on to the 
next. One can get bogged down in the paperwork and the 
intricacies and the desire for a number of counts and where we 
have a large backlog of cases, as we do, for instance, in the 
mortgage fraud area, we have to go through and push those 
through both from the investigative side as well as from the 
prosecutor's side. And I have found that prosecutors around the 
country understand that and are giving us the support that we 
need to continue to investigate and prosecute these cases.
    Mr. Gowdy. My time is almost up, so I will ask you one more 
question and then finish with one quick comment.
    Any changes that you would like to see in the sentencing 
guidelines?
    Mr. Mueller. Not offhand. I would have to get back to you 
on that. I really have not given that much thought recently.
    Mr. Gowdy. Well, I will close by the same way I started, 
thanking you for your service in law enforcement and also as a 
prosecutor.
    Mr. Mueller. I will see you back in the courtroom. 
[Laughter.]
    Mr. Smith. Thank you, Mr. Gowdy.
    The gentlewoman from Texas, Ms. Jackson Lee, is recognized 
for her questions.
    Ms. Jackson Lee. Director Mueller, thank you, first of all, 
for your service. We have had the mutual privilege, I would 
claim, at this point to see each other on a number of occasions 
over the years, and I know that we have gone through some 
enormously tough times.
    I want to focus on what I think is a rising but certainly a 
crisis that our combined law enforcement have really tried to 
counter and that is the drug violence on the Texas border or on 
the southern border. I would like to get your assessment. We 
know that President Calderon is coming to the end of his term. 
We know that there have been 35,000 deaths plus. We know that 
two teenagers left El Paso and didn't make it back from the 
other side of the border. We know that the mayor of Laredo has 
been here pleading for a focus.
    My question is obviously we have the Border Patrol, but the 
FBI, as I understand it, are in a number of drug task forces, 
gun-running task forces. I would like to know what progress we 
have made. What can we claim as victories with the task force 
structure that we have used to try and get our hands around 
this question? That is number one.
    What is the level of gun-running that you have assessed 
specifically out of Houston, Texas or coming from the United 
States into Mexico?
    Number three, I do believe you could be a vital advocate. 
Some of us said that we tire of seeing fallen law enforcement 
officers, just recently a U.S. marshal, certainly Mr. Zapata in 
Mexico, though he was, as we understand it, under those laws 
unarmed, but fallen law enforcement officers in the line of 
duty. We honor them every May 15.
    Speak specifically to the question of clips being sold 
randomly over the counter, if you will, ammunition clips, and 
speak specifically to a background check for private sellers 
and how that would be helpful and not harmful. What harm could 
that do?
    And I might say, Mr. Mueller, that what is not left to the 
Federal Government certainly is the States, but in this 
instance I consider the lack of reasoning gun regulatory 
process and unfunded mandate to the States and the cities 
dealing with the fallen, whether it is our law enforcement 
officers or the bloody Friday and Saturday nights that come 
about through local gang warfare, methamphetamine fights, 
cocaine fights, whatever fights you are having. That is an 
unfunded mandate that this Federal Government is not answering.
    So if you would for a moment give us the real impact of 
$133 million in cuts or more as we make our way through this 
budgeting process. Mr. Mueller?
    Mr. Mueller. Let me go back and start on the first question 
I think related to Mexico and what we see on the border and 
what successes there might be down there. I do believe 
President Calderon has undertaken an unprecedented attack on 
the cartels and violence in Mexico. Unfortunately, it has not 
been as successful as he or anybody else would like, given the 
murder rate and the atrocities that occur south of the border.
    I do believe one of the--and I am not certain I would call 
it a success. I would say at this point in time we have not 
seen wholesale violence north of the border. We have the 
incidents of law enforcement shootings, the ICE agents in 
Mexico and then customs enforcement agents in the United 
States. We have had in several of our cities over the past 
several years kidnappings where individuals who have businesses 
or family in Mexico but they are living in the United States 
will be kidnapped. We put together task forces to address that, 
and I do believe that those incidents have been reduced as a 
result of that.
    We also in the FBI particularly focus on corruption at the 
border. We have got a number of task forces that address 
corruption. They have been successful in rooting out corruption 
north of the border.
    And lastly I would say we contribute with our border 
offices as well as our legal attache office in Mexico to a 
unified intelligence task force operating out of El Paso that 
is, I believe, a substantial advance in providing intelligence, 
not just individuals, our counterparts in Mexico, but also to 
those who are operating along the border to prevent that 
violence from coming north of the border.
    We recently addressed one of our concerns which is the 
gang, Barrio Azteca, which has grown over a number of years 
both in Mexico as well as in the United States. We had a 
takedown and arrest of a number of the principal players in 
Barrio Azteca several weeks ago. That also was an important 
step.
    You asked about the extent of guns going from Houston, if I 
am not mistaken, down south.
    Ms. Jackson Lee. And if you could include in that the 
clips. Just answer specifically clips legislation and 
background checks.
    Mr. Mueller. Neither on the guns nor the clips do I really 
have an understanding of the extent of the gun-running from 
north of the border to south of the border. I would have to get 
back to you on that.
    As to the gun laws and modifications to the gun laws, I 
don't think there is a person in law enforcement who isn't 
tremendously disturbed when any law enforcement agent in 
whatever entity loses his or her life. And there have been a 
spate of those killings recently, unfortunately, and the number 
of law enforcement that died in the course of duty last year 
was up from the year before. And without getting into 
specifics, there is not a one of us who wouldn't like to see 
some sort of capability to address automatic, semi-automatic 
and large clip weapons. When it gets to the specifics, I will 
leave that up to others, but all of us in law enforcement are 
concerned whenever any particular law enforcement agent goes 
down. Unfortunately, it is not getting better, it is getting 
worse.
    Mr. Smith. The gentlewoman's time has expired.
    Ms. Jackson Lee. Mr. Chairman, can I just ask a question to 
you, please?
    Mr. Smith. Of course.
    Ms. Jackson Lee. And Mr. Mueller could hear the question.
    Two questions. One, I think it would be appropriate for a 
classified briefing on the drug violence and drug task force in 
particular. Some of the information is classified and I would 
just encourage the Ranking Member and the Chairman to consider 
such a briefing.
    And then to Mr. Mueller, I would like to engage with the 
task force in Houston and would ask the FBI to cooperate. I 
will be seeking to engage with a meeting and just getting the 
sort of overall briefing as to what is occurring.
    Mr. Chairman, I just want you to know there is gun-running 
in Houston, and it is challenging. But I appreciate the fact 
that if we could have a briefing, you could consider that.
    Mr. Smith. We will certainly consider that. Thank you for 
the suggestion.
    The gentlewoman from Florida, Ms. Adams, is recognized for 
her questions.
    Ms. Adams. Thank you. Thank you for your service. As 
someone who has worked in an undercover capacity on a task 
force with the FBI in a previous life as a deputy sheriff, I 
understand the intricacies involved when you are doing 
investigations. And while a lot of people want it to hurry up 
and get to the fruition, sometimes it is not that easy. And if 
you do want a conviction, you want to make sure that you have 
every ``I'' dotted, every ``T'' crossed, and ensure that when 
you bring that information to the courts, that the courts will 
be able to go forward with that conviction. So I want to thank 
you for your service.
    I want to get back to the roving wiretaps because I have 
heard a lot about it in Committee meetings and everything, and 
I have heard some people say that you don't have your target 
identified. Now, as someone who has been involved in these type 
of investigations, I know that you have to have a target 
identified before you can get this type of tap. Correct?
    Mr. Mueller. Correct.
    Ms. Adams. It may not be you have the accurate name. They 
may have 20 names associated with the same person, but you have 
your target identified.
    Mr. Mueller. Exactly. You have it exactly right. We have to 
go to the judge with sufficient information to identify this 
individual from all other individuals. We may not have an 
accurate name, as you indicate, on the individual, but 
nonetheless, we may have been surveiling him for a period of 
time. We may have information on somebody. The name is affixed 
to this particular person, but we don't know the true name. But 
we, in order to get the warrant, have to have sufficient 
specificity to identify this individual from all others.
    Ms. Adams. I have been in those situations when I have been 
trying to obtain a warrant myself.
    Let me get back to the PATRIOT Act, and I want to ask you 
what unique challenges to investigations and to terrorism 
prevention efforts are posed by the self-radicalized jihadist?
    Mr. Mueller. Having been in law enforcement yourself, one 
knows that it is somewhat easier to make a case when there are 
a number of individuals who are conspiring together. One will 
crack. You will get communications. There will be some 
telltales that will enable you to pursue the investigation. If 
you have a person who is self-radicalized, for instance, on the 
Internet, and his association is with the Internet and with 
other persons who are anonymous on the Internet, and that 
person watches videos and that person continuously educates him 
or herself in terms of getting to the point where they are 
willing to undertake terrorist attacks, they are very, very 
difficult to discover because there is no outreach to others. 
There is no communication. You can't identify a person lower in 
the chain or up the ladder that will identify him. And so it is 
a real challenge for us in law enforcement to be able to 
identify those persons before they undertake a terrorist 
attack.
    Ms. Adams. I listened to the last questioning and I heard 
your answers. I too am concerned about what appears to be 
targeting of our law enforcement personnel across our Nation 
and those working outside, as what happened in Mexico. I have a 
husband who is on the wall at Judiciary Square, along with a 
lot of my friends. So I have a true understanding of this 
issue.
    I am concerned, however, that we send men and women across 
the border and they aren't armed. So I know that wasn't your 
agency, but it does concern me enough that I want that on the 
record that we need to do more to give our men and women the 
tools they need when we are TDYing them or sending them into 
such an area.
    Now, the lone wolf provision and how it works. We have 
heard so much here about the PATRIOT Act and that it is going 
to target American personnel. And that is not what it does. Is 
that correct?
    Mr. Mueller. This is for a non-U.S. citizen. That specific 
provision is applicable only to a non-U.S. citizen. And that is 
perhaps unique to that particular provision, but it is in that 
provision. The fact that it applies only to a non-U.S. citizen 
is in that particular provision of the statute.
    Ms. Adams. Thank you.
    Well, again, thank you for your service. I want to thank 
your men and women. I have worked with them before on task 
forces. They are very professional and I appreciate all that 
you do.
    Mr. Mueller. Thank you, ma'am.
    Mr. Smith. Thank you, Ms. Adams.
    The gentleman from North Carolina, Mr. Watt, is recognized.
    Mr. Watt. Thank you, Mr. Chairman.
    Director Mueller--I always have trouble with the name, but 
I think I got it right this time.
    When you have been before the Committee before, I have 
asked you about a whole range of different issues. But I am 
going to put on my Ranking Member hat of the Intellectual 
Property Subcommittee this time and try to focus attention on 
some issues there.
    We recently, in fact yesterday, had hearings on 
proliferation of counterfeit goods in both the domestic and 
international marketplace and examined the issue of piracy of 
copyrighted items such as movies and luxury items on rogue 
sites based in foreign countries. One of the things that we 
found was that clearly reacting to this is going to require a 
coordinated response between multiple law enforcement agencies, 
the FBI, Department of Justice, Homeland Security, ICE, and the 
Patent and Trademark Office, if we are going to effectively be 
able to address the problem.
    I am interested in your assessment of the extent to which 
those different agencies are coordinating their efforts, 
whether you feel like you have crafted a coordinated effort in 
this area, and if so, discuss how this has worked in practice 
and whether jurisdictional and oversight challenges that we 
have here in Congress even between the agencies have arisen.
    It has never really even been clear to me whether ICE is 
under Homeland Security, whether it is under the Department of 
Justice, whether it is under the FBI. I don't know where it is. 
Maybe you can clarify that for me in the process of responding 
to that question.
    Mr. Mueller. Yes, sir. Let me start off by saying that ICE 
is in the Department of Homeland Security.
    Going to the issue of how we address intellectual property, 
we obtained, I think, an additional 20 slots for agents 
specifically to focus on intellectual property last year, 2010. 
I believe we are still in the process of allocating those 
resources, but allocating those resources so they would 
maximize the impact. Not doing one in an office here, one in an 
office there, but looking at where we can most effectively 
align those agents to have the maximum impact on what is a 
huge, huge problem.
    I will tell you that our focus to date has been on 
intellectual property as it relates to health and safety. An 
example is an investigation we had some time ago into 
counterfeit aircraft parts where it goes beyond just the loss 
of money but could adversely impact the life of persons.
    And so when it comes to intellectual property, we do have 
additional resources. We are trying to allocate those 
additional resources to address the problems, and I would say 
we would do it again in the context of task forces with ICE 
agents, with agents who also have jurisdiction so we can 
together maximize the impact.
    Mr. Watt. So you feel like you are coordinating effectively 
in this area? Because there still seem to be yesterday just a 
crying out of almost a helpless feeling on the part of the 
people in industry about the extent of piracy and rogue sites 
that are selling pirated goods or whatever.
    Mr. Mueller. I would have to get back to you on the extent 
and whether there are any issues with regard to that 
coordination.
    Mr. Watt. Get back to me on that and also on the question 
of whether you feel like--you said you got 20 additional 
personnel, but specifically whether you are adequately 
resourced to investigate and prosecute these cases because, as 
I said at the hearing yesterday, the extent of the problem far, 
far exceeds bank robberies in the old-fashioned way. In fact, 
most bank robberies now are taking place through technological 
advances also. Nobody is walking into a bank with a gun 
anymore.
    Mr. Mueller. We still have those.
    Mr. Watt. Yes, I know you do, but everything I have heard 
suggests that a lot more money is being stolen from banks 
electronically----
    Mr. Mueller. I would agree with that.
    Mr. Watt [continuing]. Than in the old-fashioned with a gun 
way.
    I think I may be out of time. I had one other question, but 
I don't want to abuse the privilege and I will yield back.
    Mr. Sensenbrenner [presiding]. The gentleman from Texas, 
Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    Director, good to see you. In my other life, I was a judge 
in Houston and I used to tell the FBI to bring me some 
business, but we don't do that anymore. So it is good that you 
are here and appreciate your work.
    I want to talk about Brian Terry. Are you all taking the 
lead role in the investigation of his murder? The border agent.
    Mr. Mueller. Oh, yes, we are absolutely.
    Mr. Poe. I understand the investigation is going on, but I 
have heard through media reports that Brian Terry was armed at 
first with a bean bag gun and had to fire that first before he 
could use--to fire back at those drug cartel members that were 
using AK-47's. I don't know if you can comment on that or not. 
If you cannot, I understand. But can you say anything about 
that?
    Mr. Mueller. I cannot say anything about that, but I do 
know that Janet Napolitano has addressed that particular issue 
in her testimony before another panel.
    Mr. Poe. Do you see a trend of those drug cartel members 
that come in the United States becoming more aggressive and 
violent?
    Mr. Mueller. Well, I think over the last year, certainly we 
have seen extremes in violence south of the border. I do not 
believe that those extremes in violence have crossed the border 
into the United States so far, but we have to be wary of that 
and work together and by ourselves with ICE, Customs, and 
Border Patrol and others who are responsible for law 
enforcement on the border.
    Mr. Poe. Let me address a specific concern on the Texas 
border. 16 border counties in Texas consider themselves border 
counties, and they have a tremendous problem with cross-border 
crime. I don't want to use the term ``violent crime.'' I just 
want to use the term ``crime.'' And periodically I will call 
the sheriffs of those 16 counties and say how many people are 
in your jail who belong to some other country. It doesn't make 
any difference to me whether they are here legally or 
illegally. And at any given time, on an inexact percentage, it 
is anywhere from 37 to about 45 percent of the people in their 
jailhouse belong to some other country. They are in the U.S. 
They are not charged with immigration violations. They are 
charged with cross-border crime.
    I personally think that that is a tremendous amount of 
folks that are housed in our local jails from foreign countries 
that are committing crimes in the United States. Can you 
address that? I mean, do you see that as a problem?21Mr. 
Mueller. Well, that gets into an issue that is somewhat removed 
from the FBI in terms of immigration and the like. And so I 
prefer to just stay away from that.
    Mr. Poe. Well, it is not an immigration issue. It is a 
crime issue. People that cross the border from foreign 
countries--it doesn't make any difference whether they are here 
legally or illegally, and a lot of them are in our border jails 
charged with crimes. Now, I know State and local crimes aren't 
an issue of the Federal Government and the FBI, but I take a 
little issue with the fact that there is not crime on the 
border because the sheriffs are overwhelmed with cross-border 
crime. And I would think that the FBI should be concerned about 
that and should help out when they are needed to help out.
    Mr. Mueller. I can tell you that we do help out. We 
understand, particularly when it comes to violent crime. In 
particular, to the extent that we can assist State and local 
law enforcement, we want to be able to do that and we do.
    Mr. Poe. The cooperation--candidly tell me what you believe 
the cooperation with the Mexican law enforcement is in the 
investigation of homicides of Americans in Mexico. I understand 
there were 65 Americans killed last year in Mexico. To my 
knowledge, none of those cases have been solved. What is the 
level of cooperation by them with the FBI in solving those 
crimes?
    Mr. Mueller. I think it fair to say that it depends on the 
particular case and the individuals with whom you may have a 
relationship across the border. We have border liaison agents 
and officers that spend a great deal of time developing those 
relationships with our counterparts south of the border. And in 
many cases, we have a very good relationship and they will do a 
very competent job and we will work a case well together. There 
are other cases that do not work out so well.
    Mr. Poe. Well, not solving 65 murders doesn't sound like a 
very good clearance rate to me, and I would hope that you would 
help us to determine how we can get the Mexican Government more 
involved in helping you in solving these crimes of Americans 
that are murdered.
    My last question is this. The Los Zetas, one of the most 
violent of all the criminal gangs--do you have an opinion or 
give some insight on what you think we could do as Members of 
Congress? Should we try to make them a member--or put them on 
the foreign terrorist organization list so we could prosecute 
them better when they commit the crimes in the U.S.?
    Mr. Mueller. I am not certain that that would assist us. 
Again, as I indicated before, I believe the answer to many of 
these threats that we face today is the cooperative efforts of 
State and local law enforcement working with the Federal law 
enforcement, not only because of the skills and capabilities 
that are brought to the table by these various entities, but 
also by the use of both State laws as well as Federal laws to 
address the activity. And so I would go back to, as opposed to 
designating a group as a terrorist group where it may not fit 
that particular category, one focuses on developing incentives 
for us to work together, particularly financial incentives to 
work together on task forces to address these.
    Mr. Poe. Thank you, Director. I appreciate it, Mr. Mueller.
    Mr. Smith [presiding]. Thank you, Mr. Poe.
    The gentleman from Illinois, Mr. Quigley, is recognized.
    Mr. Quigley. Thank you, Mr. Chairman.
    Good morning, Director. Again, thank you for your service.
    I guess I can't get off that issue. Again, talking about 
the border issues, Secretary of State Clinton said that the 
vast majority of the guns being used are coming from the United 
States. I can't help but want to ask you a little bit more 
about how those purchases are taking place, the straw 
purchasers and the difficulties there, but just across the 
country in tracking weapons used because of limitations imposed 
by the laws.
    Mr. Mueller. Well, I would have to defer to my counterparts 
in ATF who are much more knowledgeable in terms of the flow of 
guns to Mexico from the United States. From our perspective, 
whenever we have a case that may involve guns that have been 
purchased through straw purchasers or there may be other 
indicia implicating wrongdoing in the purchase of that 
particular weapon, we coordinate with ATF. We make use of the 
ATF databases, and our agents are alert to the fact that this 
is a substantial issue. We have to prohibit the guns, prevent 
the guns going south of the border, and we do that in 
coordination with the ATF.
    Mr. Quigley. But you have no problems tracking weapons used 
in crimes across the country. There is no limitations that you 
can speak of today?
    Mr. Mueller. In terms of tracking weapons----
    Mr. Quigley. From their original purchases.
    Mr. Mueller [continuing]. Again, I cannot think of 
limitations in terms of our ability to do it, but of course----
    Mr. Quigley. Language that was passed before limiting 
access and serial numbers and use of purchase--through 
purchasers.
    Mr. Mueller. I am not familiar with the intricacies of that 
discussion.
    Mr. Quigley. At least perhaps gun shows, the fact that 
there is no background check required in a gun show.
    Mr. Mueller. I know that is a subject of discussion in 
Congress, yes.
    Mr. Quigley. Wouldn't it be a subject of concern for you 
and your agents?
    Mr. Mueller. To the extent that we can track weapons back 
to individuals and trace weapons, it is beneficial to us in 
doing our job.
    Mr. Quigley. All right. Well, we will shift gears here.
    The Supreme Court struck down the honest services law that 
helped your agency deal with public corruption. How much of a 
gap do you see this having left in the laws you need? Do you 
have any suggestions as to specific aspects? The Court said it 
needed to be less vague, but specific issues there that you 
feel should be included in any new legislation?
    Mr. Mueller. I have not looked at this issue in a while. I 
know there was discussion about additional legislation that may 
partially fill the gap or be responsive to the concerns of the 
Supreme Court. We, along with the Department of Justice, have 
gone back and looked at every case that has been affected by 
the decision, and for the most part, the individuals were 
prosecuted on mail fraud or other charges as well and most of 
the convictions have stood up. So in terms of impact on past 
cases, I think it has had a relatively marginal impact on past 
cases. And I would have to get back to you on whether or not we 
need some additional legislative fix to fill that hole.
    Mr. Quigley. Earlier the lone wolf provisions were brought 
up, the PATRIOT Act. From my perspective, many of the lone wolf 
issues have been not foreigners but American citizens. You 
probably heard about the fake bomb put near Wrigley Field just 
this last year, a block from my house. So it is near and dear 
to home. Do you feel that you have enough tools to deal with 
the lone wolves who are just American citizens that pose the 
same threat?
    Mr. Mueller. I am not certain it is a question of 
additional resources. We are focused very intently on lone 
wolves, domestic lone wolves, and have been certainly ever 
since 1995 and McVeigh who was responsible for the Oklahoma 
City bombing. And we utilized all of our techniques to try to 
identify the lone wolves, but it is very, very difficult. I am 
not certain I could say to you today that we need additional 
resources that I would put here which would improve our ability 
to identify the lone wolf. We are going to have to adapt 
additional capabilities and techniques to identify the 
mechanisms of radicalization so that we then can identify the 
persons who are the lone wolves.
    Mr. Quigley. Thank you. I yield back.
    Mr. Smith. Thank you, Mr. Quigley.
    The gentleman from Iowa, Mr. King, is recognized.
    Mr. King. Thank you.
    Director, on your left wing over here.
    Mr. Mueller. Sorry, sir.
    Mr. King. Thank you. I am not in the middle of the action 
here, but I am connected to what is going on.
    I appreciate your service to this country and your 
testimony here today and your responses to your questions.
    I would like to take you to a question that deals with 
Khalid Ali-M Aldawsari. I see you recognize his name even 
though I might not have pronounced it right. It is my 
understanding that he arrived here on a student visa, but he is 
under a charge of attempted use of a weapons of mass 
destruction. In his journal he wrote, the need to obtain forged 
U.S. birth certificates, multiple driver's licenses, and U.S. 
passports. And it is my understanding he planned to use those 
driver's licenses to rent several cars and to do so with a 
different license so he could have a different name on each one 
in order to confuse law enforcement authorities.
    Are the driver's licenses and passports and fraudulent--are 
they a useful tool for terrorists?
    Mr. Mueller. Well, let me start by saying that there is a 
gag order in that case that has been issued by the judge in al-
Dawsari. So I cannot specifically speak to that case.
    But speaking more generally, apart from that case, the use 
of driver's licenses as what we call a seed document that 
builds a separate identification, yes, that is a problem, has 
long been a problem, and one that we are knowledgeable about 
and in every case look to see whether that has been the case 
that a person's identification has been developed as a result 
of a seed document such as a driver's license.
    Mr. King. I remember that language now. I hadn't brought it 
up in some years, but the seed documents from low standards for 
issuing driver's licenses or false identification that might 
result in a passport turns into a useful tool for terrorists in 
this scenario that is generally speaking that you have spoken 
to.
    Mr. Mueller. True.
    Mr. King. Thank you, Director.
    I would go on to something maybe a little bit easier and 
that wasn't actually hard. These are just a series of 
questions, but is it common for local law enforcement to work 
closely with the FBI? And yes. And I grew up in a law 
enforcement family and I respect that relationship that is 
there.
    And do local law enforcement routinely conduct 
investigations that result in indictments under Federal 
charges?
    Mr. Mueller. Yes.
    Mr. King. And do they have the authority to do so?
    Mr. Mueller. Yes.
    Mr. King. And so I take this to this point which is that 
includes immigration law.
    Mr. Mueller. I guess I don't understand the question.
    Mr. King. The question would be then local law enforcement 
routinely works with the FBI. They routinely do investigations 
that result in indictments under Federal charges. So they do so 
with Federal law and they do so routinely with Federal 
immigration law as well. And the follow-up question to that is, 
is it your position that local law enforcement has the 
authority to investigate and cooperate in the enforcement of 
Federal immigration law?
    Mr. Mueller. I think that is an issue we would have to get 
back to you on. It is a little bit removed from the usual issue 
that we deal with day in and day out when we are looking at a 
narcotics trafficker and the like. Again, I am not sufficiently 
well versed in that aspect of the law. We would have to get 
back to you.
    Mr. King. I would ask you to do that and then I would ask 
you also to review a couple of circuit court cases, Tenth 
Circuit. They both happen to be U.S. v. Santana Garcia and the 
other one is U.S. v. Vasquez Alvarez that I believe are on 
point for that. And I think it is useful for us to understand 
that relationship and the cooperative effort between Federal 
and local law enforcement.
    Another subject matter that I am curious about is that 
there are estimates out that there are roughly 1,200 mosques in 
the United States, and we are seeing homegrown terrorists 
emerge, people that have American citizenship by birth that 
turn against their country. I believe that there is jihad being 
preached in some of those mosques. Can you tell me is the FBI 
restrained from investigations in a public setting like that? 
Can they go into the mosque, listen, report, record? Are you 
constrained in any way from that type of activities? It might 
give us a better sense of how the homegrown terrorists are 
being radicalized.
    Mr. Mueller. I am not certain about the figures that you 
use, but I will say that we are not constrained in undertaking 
investigations, but we are exceptionally sensitive to the fact 
that the First Amendment does protect speech and association. 
And so we are not constrained in following a predication of an 
individual regardless of where they may be; who may be 
contemplating involvement or engagement in supporting terrorism 
or a terrorism act.
    Mr. King. Does it require a warrant for an FBI agent to sit 
in a mosque with a tape recorder in a public setting?
    Mr. Mueller. It depends on the circumstances, but generally 
I would say no.
    Mr. King. Thank you. That helps me a lot.
    Mr. Mueller. In the same breath, I would say that there has 
to be predication for utilizing that particular technique.
    Mr. King. And just one brief question, if the Chairman 
would indulge.
    Mr. Smith. Please be brief.
    Mr. King. Thank you, Mr. Chairman.
    And that is, Director, do you know of even a single case 
where an individual had their rights to privacy usurped under 
the PATRIOT Act that has any potential of being successfully 
litigated on constitutional principles?
    Mr. Mueller. I don't believe so. I am not aware of one.
    Mr. King. And I don't either. Thank you, Director. I 
appreciate it.
    Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Thank you, Mr. King.
    The gentlewoman from California, Ms. Chu, is recognized for 
her questions.
    Ms. Chu. Director Mueller, I have similar questions but 
from a different perspective.
    I believe that you have stated that protecting America 
requires the cooperation and the understanding of the public. 
You have also emphasized that since 9/11, the FBI has developed 
an extensive outreach program to Muslims, South Asian, and Sikh 
communities to develop trust, address concerns, and dispel 
myths in those communities about the FBI and the U.S. 
Government. And as part of this effort, in 2009 the FBI 
established the Specialized Community Outreach Team, composed 
of special agents, analysts, community outreach specialists, 
and personnel with language or other specialized skills.
    Now, as you know, last week the House Homeland Security 
Committee held a controversial hearing on the extent of 
radicalization in the Muslim community focusing only on one 
community. I am deeply concerned about the attempts to 
marginalize an entire minority group in this country, and the 
reason I am sensitive to it is that I know that targeting like 
this can result in great tragedy. For instance, the words 
``national security'' were used to send 120,000 Japanese 
Americans to prison camps throughout America during World War 
II, making them lose everything that they had, and in the end, 
not a single act of espionage was proven.
    So considering the efforts to be concerned about improving 
national security, I would like to ask you if you agree with 
Congressman King's assessment that American Muslims are not 
cooperating with law enforcement, especially since Sheriff Lee 
Baca stated in that hearing that Muslim Americans helped foil 7 
of the 10 plots that were launched by al-Qaeda in the U.S.
    Mr. Mueller. Well, I would prefer not to comment on the 
representations of others. But if the question is to what 
extent has the Muslim community cooperated with the FBI since 
2001, I can say in a number of cases the Muslim community has 
either initiated or cooperated with the investigation 
throughout the course of the investigation leading up to a 
successful disruption of the terrorist plot, often with 
consequent arrest and prosecution.
    Ms. Chu. And is it true, as Sheriff Lee Baca said, that 
Muslim Americans helped foil 7 of the 10 plots that were 
launched by al-Qaeda in the U.S.?
    Mr. Mueller. Again, I am not certain of the statistics. I 
will say that the Muslim community has helped in a number of 
cases that we have addressed since September 11th.
    Ms. Chu. Well, according to a study by the Triangle Center 
on Terrorism and Homeland Security, the number of Muslim 
Americans involved in terrorist acts against the U.S. dropped 
by more than half in 2010 compared to 2009, which seemed to 
indicate that perhaps we are going in the opposite direction 
with regard to Muslim Americans being radicalized, as was 
alleged in the hearing. 20 Muslim Americans were arrested for 
terrorism crimes last year, which is down from 47 the previous 
year, and more non-Muslim Americans were involved in terrorist 
plots last year than Muslim Americans, according to the study.
    I would like to have your comments on the findings of this 
study.
    Mr. Mueller. I have not had an opportunity to review the 
study, so it would be difficult for me to comment on it.
    Ms. Chu. Well, then could you comment on how you think the 
relationship between the FBI and the Muslim community might be 
improved?
    Mr. Mueller. I think we continuously have to work at 
outreach. The FBI certainly does, and I think we have made 
substantial efforts and they have been successful since 
September 11th, but it is an ongoing process. Actions of the 
FBI could be misinterpreted. We use every opportunity we have 
to explain what we do and why we have done it. Occasionally it 
is shrouded in secrecy because either the subject matter or the 
techniques are classified. But to the extent that we can be 
transparent and point out why we undertake certain actions, the 
results of those actions, then we find that whether it is 
members of the South Asian or Muslim or Sikh or Arab American 
community, there is understanding and we develop, I would say, 
a very good relationship. We have, I believe, very good 
relationships with the Muslim community around the country.
    I will say, as I have said before often in testimony, that 
the vast, vast majority of Muslim Americans are no different 
than any other American sitting in this room or as patriotic 
and express that in ways that are appropriate in terms of 
assisting us in our investigations. And we continue to develop 
the relationships.
    One other thing I do believe is the worse thing that could 
happen to the Muslim community is to have another terrorist 
attack, and members of the Muslim community understand that, 
respond to it, and for the most part, are cooperative.
    Ms. Chu. Thank you. I yield back.
    Mr. Smith. Thank you, Ms. Chu.
    The gentleman from Arizona, Mr. Quayle, is recognized for 
his questions.
    Mr. Quayle. Thank you, Mr. Chairman.
    And thank you, Mr. Director, both for your service and for 
being here today.
    Now, we have the PATRIOT Act reauthorization for a certain 
number of provisions. I just have one question regarding the 
roving wiretaps.
    Now, when an order authorizing the roving or multi-point 
wiretaps, what type of reporting to the court is required when 
a new communications facility is actually identified?
    Mr. Mueller. Would you excuse me just a second?
    Mr. Quayle. Yes.
    Mr. Mueller. Yes. I wasn't familiar with the details, but 
apparently we make a return within 10 days of the new phone 
number. So there is a responsibility to get back to the court 
and alert the court as to the fact that there was a new number.
    Mr. Quayle. And this is after they have already gone to 
court to get the initial authorization.
    Mr. Mueller. Yes, sir.
    Mr. Quayle. Thank you.
    And moving on to a different topic, cyber security is going 
to be a potent threat going forward. It already is now, but 
going into the future, it is going to be even more dangerous. 
What is the FBI's role in assessing and investigating various 
cyber threats?
    Mr. Mueller. One of the difficulties with a cyber intrusion 
is the immediate attribution. You do not know whether it is 
another government who is seeking to exfiltrate information 
from the national services or from the military or what have 
you. You don't know whether there is a group of individuals 
that have come together, maybe a terrorist group, or a high 
school student across the street that is responsible for it.
    We established several years ago the National Cyber 
Investigative Joint Task Force in which we, along with other 
members of the intelligence community, law enforcement 
community, have this task force in a separate place where we 
take each intrusion and immediately try to determine how best 
to investigate it, utilizing the capabilities of both the 
intelligence community, as well as the law enforcement 
community, and then investigate it either as a criminal threat 
or a counter-intelligence threat. So we are at the hub of the 
attribution and investigation side.
    The Department of Homeland Security is responsible for 
alerting and protecting the private side of the Internet, and 
quite obviously, NSA and the new Cyber Command are responsible 
for protecting the Government entities, particularly when it 
comes to the military.
    Mr. Quayle. So when you assess a threat and you determine 
whether it is criminal or whether it is more counter-
intelligence, then criminal goes toward the FBI and counter-
intelligence goes to----
    Mr. Mueller. It may well be but there may be----
    Mr. Quayle. Some overlap?
    Mr. Mueller [continuing]. Expertise in any one agency. In 
other words, there may be expertise in the NSA. Ultimately it 
may turn out to be a criminal threat and we may want to go to 
court which requires different treatment. On the other hand, we 
may have expertise here that is helpful to the military. Or 
what happens more often than not in this day and again, it is 
cross-jurisdictional. The victims may be in the United States, 
the actors outside; or the actors in the United States and the 
victims outside. And consequently, the cyber threat, more than 
any other, because of the difficulty of attribution at the 
outset, requires us to work together in the task force concept 
to make certain that we gather all the information we can and 
then make a determination how best to address the threat 
whether it be through prosecution or through some sort of 
activity on the part of the intelligence community.
    Mr. Quayle. When you were talking with Mr. Watt earlier, 
you were talking about IP theft that is pretty much rampant 
right now on the Internet, and you mentioned that the FBI had 
gotten increased funding in, I think it was, fiscal year 2009 
and 2010 for specific agents that were specifically tasked with 
going into IP theft. There are reports out that there haven't 
been any increased investigations related to IP theft. And I 
would just want to know is it just because you are ramping up, 
or what is the reason that there is not increased 
investigations when more allocated resources have been given to 
the FBI?
    Mr. Mueller. Well, actually, we have over 460 
investigations ongoing in intellectual property at this point 
in time. Some of them probably predated the addition of the 20 
agents. And I would have to get back to you as to where they 
are and what particular investigations they are undertaking. 
But in the last year or so, we have undertaken a review to 
better allocate our resources to maximize the impact. But as I 
say, we have over 460 ongoing investigations. That is probably 
not enough given the extent of the crime out there, but we have 
to prioritize and we do the best we can in terms of 
prioritizing.
    Mr. Quayle. Okay, great. Thank you very much.
    I yield back.
    Mr. Smith. Thank you, Mr. Quayle.
    The gentleman from Florida, Mr. Deutch, is recognized.
    Mr. Deutch. Thank you, Mr. Chairman.
    Director Mueller, thank you for your service. I will be 
sorry to see you go this fall.
    I want to get back to an exchange you had earlier with Mr. 
Conyers. Last year, the FBI had identified mortgage fraud as 
its most significant white-collar crime issue and noted that 
the number of investigations of mortgage fraud against 
financial institutions had been rising annually, and in fact, 
earlier this morning, you recited some statistics about the 
number of ongoing investigations.
    Could you describe the results of those investigations thus 
far?
    Mr. Mueller. I think they have been very successful. I 
don't believe there is a month or 2 months that goes by without 
a substantial takedown of individuals who were involved in some 
sort of scheme relating to mortgage fraud. But I would have to 
get those statistics for you.
    Mr. Deutch. I would appreciate that.
    Mr. Mueller. I think we have been quite successful and 
actually we have had a number of press conferences when we have 
taken down a number of particular cases around the country. So 
I will get you that information, sir.
    Mr. Deutch. I appreciate that.
    Does the FBI have sufficient resources to combat financial 
fraud and mortgage fraud?
    Mr. Mueller. We have over 3,000 mortgage fraud cases. We 
again do have to look at them through the working groups and 
the task forces that we have around the country. We try to make 
certain that we address each one either at the Federal level or 
at the State level. We have periodic reviews with each of our 
field offices at least twice a year in which I am asking about 
their mortgage fraud caseload and how they are addressing the 
mortgage fraud caseload and where the cases are in the course 
of investigation and prosecution, and if we can't do it, who is 
doing it. So I believe that has been successful in addressing 
this particular issue.
    Mr. Deutch. As you do that analysis and make the 
determination that if you can't do it, who is doing it, what is 
the answer to that question that will satisfy you when you try 
to determine who else is doing----
    Mr. Mueller. If it is being addressed either by a local 
district attorney's office or in many cases the attorney 
general's office.
    Mr. Deutch. Which then leads in to my next question. 
Beginning in the fall of last year when reports started to 
surface that certain mortgage services were submitting false, 
improper, or fraudulent court documents in support of 
foreclosure actions, there were reports that raised concern 
that the mortgage lending industry may have pursued--there may 
have been thousands of foreclosures unlawfully. At that time, 
the Justice Department indicated it was considering an 
investigation into whether there may have been criminal 
violations concerning the conduct of mortgage servicers.
    If you could speak to the role of the FBI in the ongoing 
settlement talks and prosecutions, investigations surrounding 
the mortgage servicing industry specifically your interaction 
with, as you just pointed out, the State attorneys general in 
particular.
    Mr. Mueller. Our role would be to investigate allegations, 
accusations of illegal criminal activity in the mortgage 
services industry. I do believe we have ongoing investigations, 
but to the extent that there is discussion about settlements, 
it would be outside our realm. It would be the U.S. Attorney's 
office, the State attorney general, or other regulators.
    Mr. Deutch. And just a change in direction, again this 
being your last time up here before the Committee. You touched 
briefly in your exchange with Mr. Quayle on some cyber issues. 
The Director of National Intelligence told the House 
Intelligence Committee last month that the cyber environment 
provides unprecedented opportunities for adversaries to target 
the U.S. due to our reliance on information systems.
    If you could just speak to, one, whether you share Director 
Clapper's concern that the cyber environment presents these 
unprecedented opportunities for our adversaries and, two, 
whether you believe security of the system should be enhanced? 
Again, that is based on the investigations that the FBI may 
have been conducting addressing specifically the cyber security 
issues.
    Mr. Mueller. Well, I do agree with General Clapper. I think 
he is absolutely right in that the opportunities for intrusions 
and illegal cyber activity are growing exponentially as 
technology grows and that every one of us has an obligation to 
address security within their particular institutions or even 
within one's particular household. The Government as a whole, I 
know, is working. The Administration is working to continue to 
address this.
    Our role, as I indicated before, is generally to 
investigate the intrusions and determine attribution, and then 
if it is someone over whom we have jurisdiction, to arrest, 
indict, and convict. We actually have had cases where we have 
had extradited from other countries persons who have undertaken 
illegal cyber activity and the victims are here in the United 
States. So not only is it a growing problem, it is a growing 
international problem where we cannot be content to reside in 
our own jurisdictions and just address what is happening in our 
jurisdiction because often the players, the actors are not in 
our jurisdiction but the victims may well be. So it will be a 
huge challenge in the future.
    Mr. Deutch. Thank you, Director.
    Mr. Smith. Thank you, Mr. Deutch.
    The gentleman from California, Mr. Gallegly, is recognized.
    Mr. Gallegly. Thank you, Mr. Chairman.
    Director Mueller, it is great to see you here this morning. 
You know, after just completing 8 years on Intel and seeing the 
diversity and the complexities of what you have to deal with 
every day, I have incredible respect for you and the job you 
have done. I have to say that I miss being on Intelligence, but 
there is an 8-year term limit. So we will find other 
challenges.
    I know, as I was coming in this morning--and I was a few 
minutes late. But I know that there was some discussion as it 
relates to health care fraud. I recently had a group of folks 
from Los Angeles County's law enforcement agencies, county 
sheriffs, former DA's, and so on that had been working Medicare 
fraud in the greater Los Angeles area and in and around that 
regionally. It is mind-boggling to me the information that they 
passed on to me as it relates to Russian gangs, identity theft, 
and particularly with doctors, identity being taken and false 
claims being paid to doctors through these clinics that were 
using other doctors' names, and then these doctors not knowing 
about it until they get a letter from the IRS about not paying 
their income tax. I mean, it is a very complicated situation.
    However, it gets beyond that. I would just like to maybe 
hear from you what your understanding of the depth of this 
problem is. I have had numbers that seem to be from credible 
sources that the fraud amounts on Medicare alone could be as 
much as $60 billion a year, which plays a major role in the 
success and the challenges of Medicare. Issues like women that 
are preyed on, particularly illegal immigrants, that are paid 
$25-$30 to go in and take mammograms two-three times a week and 
the concern, of course, on their health is an issue. Pharmacies 
that are selling three and four times as many drugs each week 
as they actually buy. So it is a revolving door where they are 
working in conjunction with some of these clinics that are 
nothing more than a computer front.
    I just would like to know if you have some comments about 
how you are working with the identity theft and particularly 
the impact that it is having on Medicare.
    Mr. Mueller. I would hope that you had a briefing from a 
task force who is addressing it because in Los Angeles, as well 
as elsewhere, we address Medicare fraud, health care fraud 
together with State and local law enforcement.
    One of the things you do point out which we have found 
recently is the intersection of organized crime with health 
care fraud. I would say there has been a substantial growth in 
the last 4 to 5 years of organized crime recognizing that 
health care fraud is a fertile field for activity. We had a 
series of arrests about a month, month and a half ago which 
laid out, at least, one substantial organized crime group that 
has spent substantial time and received substantial monies from 
Medicare fraud. So being aware of the intersection with 
organized crime is one aspect.
    Another aspect is what you will find is if there is a 
scheme that has found a home in Tampa, which we identify and we 
prosecute and take down in Tampa, inevitably it will show up in 
Texas or Arizona or elsewhere. And so we have used the 
intelligence capabilities that we have developed frankly to 
address terrorism to make certain that we anticipate the 
schemes and prevent them from taking root elsewhere.
    And so a combination of understanding the intersection with 
organized crime, the ability to try to get ahead of the scheme 
as it tries to take root elsewhere in the country, and lastly 
again I would go back to we cannot do this alone. It takes the 
combination of local district attorneys, State attorney general 
offices, as well as our agents and agents from the Postal 
Service, HHS, a number of the other agencies to work 
cooperatively in the task force or working group concept to 
address this particular threat.
    Mr. Gallegly. One thing I asked, Director Mueller, was that 
it was represented to me that a major problem, at least in the 
greater Los Angeles area, are groups that are referred to as 
Russian gangs and there are other gangs. But is it your 
understanding that that is clearly a problem where a lot of the 
money is going offshore as they are getting it through these 
fraudulent ways here in the U.S.?
    Mr. Mueller. Let me just clarify one thing.
    I would say more generally Eastern European, not just 
limited to Russia. Certainly Russian organized crime has been a 
player over the years, but the recent takedown, if I am not 
mistaken, was not Russia. It was an Eastern European country.
    Mr. Gallegly. And a lot of that is going back. Money is 
going offshore.
    Mr. Mueller. Yes, absolutely.
    Mr. Gallegly. Thank you very much, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Gallegly.
    The gentlewoman from Florida, Ms. Wasserman Schultz, now 
serving as Ranking Member, is recognized for her questions.
    Ms. Wasserman Schultz. Nothing like going from last to 
first, Mr. Chairman. Thank you very much.
    Director Mueller, it is good to see you again. Over the 
years, it has been a pleasure to work with you on the 
implementation of the Protect Our Children Act of 2008. I want 
to touch briefly on some of the issues surrounding that.
    And I know Chairman Smith mentioned his concerns about data 
retention earlier in his questions. I share those concerns. And 
I want to make sure that we get some answers from you just to 
shed some light on the challenges that you face at the FBI and 
then within the larger Department of Justice. But I look 
forward to working with Chairman Smith on advancing a 
bipartisan bill that will help make sure that law enforcement 
can connect the dots when we are dealing with child 
exploitation investigations.
    So the issue is that too many of these child exploitation 
investigations will go cold because of the lack of connectivity 
logs that link anonymous IP addresses to specific individuals 
that are often deleted by the time a criminal investigation 
ensues and the request is made. And it ranges from as small and 
as short as 7 days to as long as 90 days, but really that is an 
inadequate amount of time if the crime isn't discovered before 
that point.
    So you had mentioned previously when I have asked you this 
before, but do you still favor giving law enforcement this 
additional tool to allow them to get access to those 
connectivity logs within a reasonable period of time?
    Mr. Mueller. Absolutely. It goes to the larger issue of 
records retention which is essential to our ability to conduct 
the types of investigations----
    Ms. Wasserman Schultz. Thank you.
    And are you aware of cases that ran cold or that law 
enforcement ran up against dead ends because they couldn't get 
access to connectivity logs?
    Mr. Mueller. Yes.
    Ms. Wasserman Schultz. The law now has sort of a standard. 
Why is the preservation scheme under the Electronic 
Communications Privacy Act not strong enough currently?
    Mr. Mueller. It goes back to what you indicate. The 
connectivity logs would be an essential part of it, but email 
addresses, use of email address, past emails, past attachments 
that have crossed the Internet--that is the kind of records 
that would give us the capability to successfully conduct an 
investigation on an individual who is using every effort he or 
she can to avoid scrutiny by the authorities.
    Ms. Wasserman Schultz. Now, I have a very strong record on 
privacy going all the way back to Terry Schiavo. So it is hard 
to be second to me on the importance of privacy. But this is 
such a critical issue because for literally--I mean, we could 
say thousands of cases potentially go cold because of the lack 
of that access. Wouldn't it certainly be preferable for the 
industry to come up with their own uniform reasonable standard?
    Mr. Mueller. It would. In my mind there ought to be a 
dialogue with Congress with the private sector. You come up 
with a rational records retention policy. It used to be that 
storage was a problem, but with the advances in technology, I 
have not heard recently a company avert to storage as being a 
problem. But it is the privacy and the privacy interests in my 
mind can be protected adequately with a records retention 
policy that gives us the tools we need to conduct successful 
investigations.
    Ms. Wasserman Schultz. And the Chairman had the hearing 
with the industry here in which we indicated and urged them to 
please press forward on a voluntary standard. I am for making 
them do it if they don't do that.
    But just last but not least, because I know we are pressing 
up against votes, how is the lack of predictable data retention 
by service providers a significant hindrance and even an 
obstacle in certain investigations? And can you give us some 
specific examples of cases that have gone cold because of the 
lack of access to that data?
    Mr. Mueller. Well, I can get back to you with cases where 
they have gone cold, but anybody that looks at it and compare 
it where we were when telephone toll records were readily 
available for years and years and years and you compare to--
because the billing is so different at this juncture, there is 
no incentive for companies to keep these records. There has to 
be some mechanism that either voluntarily or mandatorily 
requires them to keep them.
    Ms. Wasserman Schultz. Just in closing, Mr. Chairman, I 
mean, we are literally jeopardizing children's lives by not 
having adequate access to this information, and I really look 
forward to working with you on making sure that we can get it.
    Mr. Smith. I agree. Thank you, Ms. Wasserman Shultz.
    The gentleman from Pennsylvania, Mr. Marino, is recognized.
    Mr. Marino. Thank you, Mr. Chairman.
    Good afternoon, Director. It is good to see you.
    I think, as you know, I was a district attorney and a 
United States attorney, and I had the pleasure of working with 
the Bureau in many cases, and it was a distinct honor. And I 
want to compliment you and the Bureau because you certainly 
have significantly increased the effectiveness and efficiency 
and the prestige of the Bureau, and thank you for your work.
    Mr. Mueller. Thank you.
    Mr. Marino. Sir, I want to revert back a little bit here to 
the PATRIOT Act, the Senate's version that is coming up. The 
Senate bill requires a showing of specific facts for NSL's, 
national security letters, and 215 orders other than library 
and bookseller records. Has the term ``specific fact'' been 
defined by the FISA Court or by the Bureau?
    Mr. Mueller. No, I don't believe it has. You can read into 
it what you want. Again, my preference would be that the 
PATRIOT Act, as it sits, be reauthorized as it is now without 
the modifications or the insertion of, I would say, a somewhat 
confusing phrase to which you allude.
    Mr. Marino. Do you think that if the FBI is required to 
include a statement of specific facts, does it open up for 
interpretation by the Inspector General whether a particular 
set of facts was specific enough, and what problems would this 
cause the Bureau?
    Mr. Mueller. I think that is a possibility, although we 
work very closely with the Inspector General. I see what you 
are alluding to. I do think that is a possibility.
    Mr. Marino. Well, you have no reservations that something 
like that could be worked out, given the relationship that you 
have?
    Mr. Mueller. We would work through it if it were passed 
into law. Again, my preference would be that we have worked 
with these three provisions, and reauthorization of those three 
provisions would be appropriate in my mind. Adding additional 
provisions relating to the NSL's or something else would put it 
into different ball park.
    Mr. Marino. Thank you, and I yield back my time.
    Mr. Smith. Thank you, Mr. Marino.
    We will now go to the gentleman from Texas, Mr. Gohmert, 
for his questions.
    Mr. Gohmert. Thank you, Mr. Chairman.
    And thank you, Director. Nice to see you back.
    You had mentioned earlier that--and it is in your written 
statement--the FBI has developed extensive outreach to Muslim 
communities. In an answer to an earlier question, I had 
understood you to say that Muslim communities were like all 
other communities. So I am curious, as a result of the 
extensive outreach program the FBI has had to the Muslim 
community, how has your outreach program gone with the Baptists 
and the Catholics.
    Mr. Mueller. I am not certain of necessarily the thrust of 
that question. I would say that our outreach to all segments of 
a particular city or county or society is good.
    Mr. Gohmert. Well, do you have a particular program of 
outreach to Hindus, Buddhists, Jewish community, agnostics, or 
is it just an extensive outreach program to----
    Mr. Mueller. We have outreach to every one of those 
communities.
    Mr. Gohmert. And how do you do that?
    Mr. Mueller. Every one of those communities can be affected 
by facts or circumstances----
    Mr. Gohmert. I have looked extensively and I haven't seen 
anywhere in anyone from the FBI's letters, information that 
there has been an extensive outreach program to any other 
community trying to develop trust in this kind of relationship. 
And it makes me wonder if there is an issue of trust or some 
problem like that that the FBI has seen in that particular 
community.
    Mr. Mueller. I would say if you look at--one of our more 
effective tools are what we call ``citizens academies'' where 
we bring in individuals from a variety of segments of the 
territory in which the office operates and if----
    Mr. Gohmert. Okay. Well, Director, I have only got 5 
minutes and so I need your answers to be very quick.
    Mr. Mueller. Look at the citizens academies, the persons 
there. They are a cross section of the community. They can be 
Muslim. They can be Indian. They can be Baptists.
    Mr. Gohmert. Okay, but no specific programs to any of 
those. You have extensive outreach to the Muslim community and 
then you have a program of outreach to communities in general 
is what it sounds like.
    But let me ask you, are you aware of the evidence in the 
Holy Land Foundation case that linked the Council on American-
Islamic Relations, CAIR, the Islamic Society of North America, 
and the North America Islamic Trust to the Holy Land 
Foundation?
    Mr. Mueller. I am not going to speak to specific 
information in a particular case. I would tell you, on the 
other hand, that we do not have formal----
    Mr. Gohmert. Are you aware of the case?
    Mr. Mueller. We do not have any formal relationship with 
CAIR because of concerns----
    Mr. Gohmert. Well, I have got the letter from the Assistant 
Director Richard Powers that says in light of the evidence, 
talking about during the trial evidence was introduced to 
demonstrate a relationship among CAIR, individual CAIR 
founders, including its current president emeritus and 
executive director and the Palestine Committee. Evidence was 
also introduced that demonstrated a relationship between the 
Palestine Committee and Hamas which was designated as a 
terrorist organization in 1995. In light of that evidence, he 
says the FBI suspended all formal contacts between CAIR and the 
FBI.
    Well, now it was my understanding--and I have got 
documentation and I hope you have seen this kind of 
documentation before. It is a public record. And also the memo 
order from the judge is turning down a request that the 
unindicted co-conspirators be eliminated from the list. And he 
says the FBI's information is clear. There is a tie here and I 
am not going to grant the deletion of these particular parties 
as unindicted co-conspirators.
    So I am a little surprised that you are reluctant to 
discuss something that has already been set out in an order, 
that has already been in a letter saying we cut ties in light 
of the evidence at this trial. I am just surprised it took the 
evidence that the FBI had being introduced at the trial in 
order to sever the relationships with CAIR that it had that 
showed, going back to a 1993 meeting in Philadelphia, was tied 
to a terrorist organization. So I welcome your comments about 
that.
    Mr. Mueller. Well, as I told you before, we have no formal 
relationship with CAIR because of concerns with regard to the 
national leadership.
    Mr. Gohmert. All right.
    And are you familiar with the evidence from the Holy Land 
Foundation trial that showed that the founders of CAIR, Omar 
Ahmad and Nihad Awad, attended a mosque meeting in Philadelphia 
in 1993?
    Mr. Mueller. I am generally familiar with that case, sir.
    Mr. Gohmert. All right. Well, thank you. I see my time has 
run out.
    One last question, though. Are you going to miss having to 
come testify at these Committees? [Laughter.]
    Mr. Mueller. That is the one question I will give a ``no 
comment'' to. [Laughter.]
    Mr. Smith. Thank you, Mr. Gohmert.
    Director Mueller, thank you for your testimony today. Thank 
you for your 10 years of service as FBI Director and also for 
your many years of public service before that, including 
service in the military and your very distinguished career 
there as well. We very much appreciate it. We wish you well in 
your future endeavors too and appreciate all you have done.
    Without objection, all Members will have 5 legislative days 
to submit additional written questions for the witness and any 
additional materials for the record.
    With that, we stand adjourned.
    [Whereupon, at 12:11 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
